Centra Credit Union Credit Card Disclosures
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases, Cash Advances and
Balance Transfers
The YOU Card - Visa® Signature _________________________________

Visa® Platinum ______________________________________________

Visa® Platinum Secured _______________________________________

0.00% Introductory APR for the first 6 months.
8.25% to 15.25% APR after first 6 months.
3.70% Introductory APR for the first 6 months.
8.99% to 14.25% APR after first 6 months.
8.99% to 14.25% APR
APRs will vary with the market based on the Prime Rate and credit
worthiness.

How to avoid paying interest on purchases

Your due date is at least 25 days after the close of each billing cycle. We
do not charge you interest on purchases if you pay your entire balance
by the due date each month. We will begin charging interest on cash
advances on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection Bureau
at http://www.consumerfinance.gov/learnmore.

Fees
Maintenance and Set-up Fees
Annual Fee
Additional Card Fee

None
None

Transaction Fees
Balance Transfer Fee
Cash Advance Fee
Foreign Transaction Fee

$10 or 2% of the amount of each balance transfer, whichever is less.
$10 or 2% of the amount of each cash advance, whichever is less.
$10 or 1% of each transaction in U.S. dollars, whichever is less.

Penalty Fees
Late Payment Fee
Returned Payment Fee

Up to $18 will be assessed 10 days after due date on Visa Platinum
and Visa Platinum Secured, 15 days after due date on The YOU Card.
None

Other Fees
Rush Fee

$20

How We Will Calculate Your Balance: We use a method called “average daily balance (including current transactions)”. See your account
agreement under Finance Charge for more details.
The minimum monthly payment is 2% of your total new balance or the overlimit amount, whichever is greater, but not less than $20 plus the
amount of any unpaid prior payments due. Payments of $10,000 or greater may not be a part of your available credit for three (3) business days.
Your payment is due on the 21st of the month.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your agreement.
Variable Rate: The ANNUAL PERCENTAGE RATE is subject to change on the first day of the billing cycle monthly to reflect any change in the
Index and will be determined by the Prime Rate on the 15th day of the month prior to the last calendar date of the current billing cycle of each
year as published in The Wall Street Journal “Money Rates” table to which we add a margin. The ANNUAL PERCENTAGE RATE will never be greater
than 18.00%. Any increase in the ANNUAL PERCENTAGE RATE will take the form of additional payments shown as Total Minimum Payments on
the statement. If the Index is no longer available, the Credit Union will choose a new index which is based upon comparable information.

revised 03/16/2020

